THE UNITED STATES SUPREME COURT

NO. 20-7053

IN RE: HECTOR MANUEL TORRES-PETITIONER
V.
Vii.

VIEJESTATE OF!;TEXASRESPONDENT

PETITION FOR REHEARING

ON PETITION FOR WRIT OF CERTIORARY

HECTOR MANUEL TORRES
TDCJ-ID NO.#01123769
ALLEN POLUNSKY UNIT
3872 FM 350 SOUTH
LIVINGSTON, TEXAS 77351

THE UNITED STATES SUPREME COURT

NO. 20-7053

IN RE: HECTOR MANUEL TORRES:PETITIONER

V.
THE SIgTrEir .TEXAS-RESPONDENT

PETITION FOR REHEARING

TO THE HONORABLE JUSTICES OF THE UNITED STATES SUPREME COURT:
Hector Manuel Torres, respectfully present's his motion seeking
a re-hearing, the state court decline to acknowledge that the decision raise the question of whether a non-citizen in deprived the
14th amendment protection during trial, also the 6th amendment
guarantee t ❑ effective counsel, because he's a non-citizen, which
is discrimination.

JURISDICTION
This petition for re-hearing is filed pursuant to 28 U.S.C.
§1651(a) of the all writ act, and is timely filed in accordance with
Rule (44). This petition is not presenting any new ground,s it
seek's a question ❑ f law to determine whether he should have the
same right's as eberyone else during a trial.

(1)

II. GROUND FOR REVIEW
THE QUESTION IS WHETHER PETITIONER HAS A "EQUAL PROTECTION"
IN COURT BEING FROM MEXICO, THE SAME AS A U.S. CITIZEN ?

Petitioner presented this issue t❑ the lower court's, but they
will not address the issue.This court announced the decision in
Chaidez V United States,568 U.6.342,133 S.Ct.1103,185 L.ed 2d 1 1E9
(2013) which denied a non-citizen the same protection that a U.S.
citizen have in court during a plea bargaining proceeding. It made
clear that non-citizens that help build the economy, is not allowed
the right to be informed of all the issues related t❑ a plea bargaining process as announced in this court in Padilla V Kentucky559
U.S.356(2010). The lower court will not address this issue, also
even if this issue was a collateral issue, does it deny pertitioner
of his 6th Amendment right to effective counsel, and his 14th Amendment right to "equal protection". Does every defendant facing trial
have those right's ? So it would be discrimination for it not t ❑
apply to every defendant facing criminal charges, so would this
court please address this issue

II. PETITIONER CERTIFY THAT THE GROUND PRESENTED IS LIMITED
TO THE ENTERVENING CIRCUMSTANCES ❑ F SUBSTANTIAL OR
CONTROLLING EFFECTS

The issues presented or limited to the circumstances that was
previously prrsantad in the lower court ❑ r the same question.
The issues challenge theeteteTcoutt ❑ n the question of whether its
decision was contrary to the United States Constitution.

n't
(2)

HECTOR MANUEL tgRRgH

III. CERTIFICATE OF SERVICE
This is to certify that a true and correct copy of this motion
for re-hearing was sent by First Class U.S. Mail to the Clerk of
the Court of Criminal Appeals of Texas, at P.O. Box 12308, Austin
Texas 78711 this 20th day of May, 2021.

Arn;44/
HECTOR MANUEL TORRES

HECTOR MANUEL TORRES
TDCJ-ID NO.01123769
POLUNSKY UNIT
3872 F.M. 350 SOUTH
LIVINGSTON, TEXAS 77351

(3)

THE UNITED STATES SUPREME COURT

NO. 20-7053

IN RE: HECTOR MANUEL TORRES-PETITIONER
U

.

THE STATE OF TEXAS-RESPONDENT

CERTIFICATION OF GOOD FAITH

Hector Manuel Torres, petitioner in this action certify that this
motion requesting a re-hearing is tieing presented in good faith
and not to harrass the court, or cause any delays.

cli
zzA

25:4(eerr
HECTOR MANUEL TORRES

•

